                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              AUDIT OF THE DISTRICT OF COLUMBIA’S
                                              WORKFORCE INVESTMENT ACT PROGRAM




                                                                        Date Issued: March 31, 2006
                                                                        Report Number: 03-06-002-03-390
U.S. Department of Labor                                March 2006
Office of Inspector General
Office of Audit                                         Audit of the District of Columbia’s
                                                        Workforce Investment Program

BRIEFLY…                                                WHAT OIG FOUND
Highlights of Report Number: 03-06-002-03-390, to       The OIG found that for Adult and Dislocated Worker
the Assistant Secretary for Employment and              participants with an approved ITA: (1) there was
Training.                                               evidence to support that DOES provided a choice of
                                                        training providers to 14 of the 20 participants in our
WHY READ THE REPORT                                     sample, but DOES’ policies for low-income
                                                        participants facing multiple barriers to employment
The Workforce Investment Act (WIA) provides             did not provide for consumer choice; (2) over one-
funding and guidance to statewide and local             third of these participants waited over 60 days to
workforce investment systems to increase the            receive training; (3) DOES caseworkers did not exit
occupational skill attainment, employment, retention,   52 percent of sampled Adult and Dislocated Worker
and earnings of participants. The Office of Inspector   Program participants with in the required WIA
General (OIG) conducted a performance audit of the      guidelines of not receiving any services within 90
District of Columbia (DC) WIA program for program       days. We also found that DOES did not comply with
years (PYs) 2001 and 2002; however, we examined         WIA regulations for its procurement of training
activities beyond this period, when circumstances       providers for the WIA Youth program until October
warranted, to answer the audit objectives. The          2002 and DOES did not comply with DC
Department of Employment Services (DOES)                procurement regulations in awarding YO subgrants.
administers the DC WIA program. For PYs 2001            The DOES procurement process of training
and 2002, ETA awarded DC $7,842,718 and                 providers for the WIA Adult and Dislocated Worker
$7,819,449, respectively, in WIA funds and              programs adheres to WIA regulations. Additionally,
$8,000,000 and $6,000,000, respectively, in Youth       DOES did not obtain the required audit reports for
Opportunity (YO) grants. WIA provides the authority     two subgrantees. Finally, The DOES One-Stop
for awarding YO grants.                                 System is structured in accordance with WIA
                                                        regulations and its State Plan, and the One-Stop
WHY OIG DID THE AUDIT                                   center costs were proportionate to the level of
The purpose of our audit was to answer the              services.
following questions:                                    .
                                                        WHAT OIG RECOMMENDED
1. For Adult and Dislocated Worker participants         We recommended that the Assistant Secretary for
   with an approved Individual Training Account         Employment and Training ensure DOES: (1) revises
   (ITA), did DOES: (1) provide these participants a    the DOES One-Stop Career System Operating
   choice of training providers; (2) provide training   Policies; (2) caseworkers document all activity
   services in a timely manner; and (3) exit these      related to enrolling participants in training and take
   participants from WIA in a timely manner?            action on the systemic causes of any delays;
2. Does the DOES procurement process for                (3) automatically exits Adult and Dislocated Worker
   selecting training providers adhere to WIA and       participants who received no services within 90 days
   DC regulations?                                      and provide training for their caseworkers to ensure
3. Is DOES meeting Office of Management and             that they are complying with policies and
   Budget (OMB) Circular A-133 Single Audit             procedures; (4) implements procedures that the
   requirements?                                        Office of Grants Management and Development
4. Is the DOES One-Stop System structured in            (OGMD) reviews subgrant awards; and
   accordance with WIA and the DOES State Plan,         (5) implements a process so that required audit
   and are costs for the One-Stop centers               reports for subgrantees are obtained and used as
   proportionate to the level of services they          part of its monitoring process.
   provide?
                                                        In their response to the draft report, DOES officials
READ THE FULL REPORT                                    stated they took corrective action on
To view the report, including the scope,                recommendations 3 and 5, and plan to take
methodology, and full agency and DOES’ response,        corrective action on recommendation 1. DOES
go to:                                                  officials did not respond to recommendations 2 and
http://www.oig.dol.gov/public/reports/oa/2005/03-06-    4. All recommendations will be resolved as part of
002-03-390                                              ETA’s audit resolution process.
                                    Audit of the District of Columbia’s Workforce Investment Act Program




Table of Contents
                                                                                                                    PAGE
EXECUTIVE SUMMARY ............................................................................................... 3
ASSISTANT INSPECTOR GENERAL'S REPORT ........................................................ 7
RESULTS AND FINDINGS

    There was Evidence to Support that DOES Provided Consumer Choice to
    14 of the 20 Adult and Dislocated Worker Participants in Our Sample, but
    DOES Policies for Low-Income Participants Facing Multiple Barriers Need
    to be Changed .......................................................................................................... 8

    Over One-Third of WIA Adult and Dislocated Worker Program Participants
    Waited Over 60 Days to Receive Training, But Inadequate Documentation
    Hindered Our Determination of Whether the Delays Were Justified ................... 9

    DOES Caseworkers Did Not Exit 52 Percent of Sampled Adult and
    Dislocated Worker Program Participants Within the Required WIA
    Guidelines of 90 Days After No Activity............................................................... 11

    DOES Did Not Comply With WIA Regulations for Its Procurement of
    Training Providers for the WIA Youth Program Until October 2002 and
    DOES Did Not Comply With DC Procurement Regulations in Awarding
    Youth Opportunity Subgrants............................................................................... 14

    The DOES Procurement Process of Training Providers for the Adult and
    Dislocated Workers Programs Adheres to WIA Regulations............................. 17

    DOES Did Not Meet the OMB Circular A-133 Single Audit Requirements
    Because It Did Not Obtain the Required Audit Reports for Two of Eight
    Subgrantees…………….......................................................................................... 18

    DOES Structured Its One-Stop System According to WIA Regulations and
    the DOES State Plan, and The One-Stop Center Costs are Proportionate to
    the Level of Services Provided ............................................................................. 20


APPENDICES ............................................................................................................... 23
   A. Background ......................................................................................................... 25

   B. Objectives, Scope, Methodology, and Criteria ................................................. 29

   C. Acronyms and Abbreviations ............................................................................ 35


U.S. Department of Labor—Office of Inspector General                                                                        1
Report Number: 03-06-002-03-390
D. Agency Response ............................................................................................... 37
                             Audit of District of Columbia’s Workforce Investment Act Programs




Executive Summary
The Workforce Investment Act (WIA) provides funding and guidance to statewide and
local workforce investment systems to increase the occupational skill attainment,
employment, retention, and earnings of participants. WIA created a comprehensive
workforce investment system, which provides individuals universal access to
employment related services, increases accountability for performance and customer
satisfaction, strengthens the role of local workforce investment boards and the private
sector, provides flexibility at the state and local level, and improves youth programs.
The U.S. Department of Labor (DOL) Employment and Training Administration (ETA) is
responsible for administering WIA at the Federal level.

The Youth Opportunity (YO) Grants, authorized under section 169 of the Workforce
Investment Act of 1998, are to provide activities for youth to increase the long-term
employment of youth who live in empowerment zones, enterprise communities, and
high poverty areas and who seek assistance. All individuals ages 14-21 that reside in a
community identified in the grant are eligible to receive services under the YO grants.
The YO grants were awarded through a competitive selection process.

As part of an ongoing effort to ensure that the WIA program was operating in
accordance with laws and regulations, the Office of Inspector General (OIG) conducted
a performance audit of the District of Columbia (DC) WIA program for program years
(PYs) 2001 and 2002; however, we examined activities beyond this period, when
circumstances warranted, to answer the audit objectives.

The Department of Employment Services (DOES) administers the DC WIA program.
For PYs 2001 and 2002, ETA awarded DC $7,842,718 and $7,819,449, respectively, in
WIA funds and $8,000,000 and $6,000,000, respectively, in YO grants. WIA provides
the authority for awarding YO grants.

We conducted the audit to answer the following questions:

   1. For Adult and Dislocated Worker participants with an approved Individual
      Training Account (ITA), did DOES: (1) provide these participants a choice of
      training providers; (2) provide training services in a timely manner; and (3) exit
      these participants from WIA in a timely manner?

   2. Does the DOES procurement process for selecting training providers adhere to
      WIA and DC regulations?

   3. Is DOES meeting Office of Management and Budget (OMB) Circular A-133
      Single Audit requirements?




U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


    4. Is the DOES One-Stop System structured in accordance with WIA and the DOES
       State Plan, and are costs for the One-Stop centers proportionate to the level of
       services they provide?

Results

We found that:

    1. Overall, for Adult and Dislocated Worker participants with an approved ITA:
       (1) there was evidence to support that DOES provided a choice of training
       providers to 14 of the 20 participants in our sample, but DOES’ policies for low-
       income participants facing multiple barriers to employment did not provide for
       consumer choice; (2) over one-third of these participants waited over 60 days to
       receive training and 14 percent waited over 4 months, but we could not
       determine if the delays were justified; and (3) DOES caseworkers did not exit 52
       percent of sampled Adult and Dislocated Worker Program participants within the
       required WIA guidelines of 90 days after no activity.

    2. DOES did not comply with WIA regulations for its procurement of training
       providers for the WIA Youth program until October 2002 and DOES did not
       comply with DC procurement regulations in awarding YO subgrants. The DOES
       procurement process of training providers for the WIA Adult and Dislocated
       Worker programs adheres to WIA regulations.

    3. DOES did not meet the OMB Circular A-133 single audit reporting requirements
       because it did not obtain the required audit reports for two of the eight subgrantees.

    4. The DOES One-Stop System is structured in accordance with WIA regulations
       and its State Plan, and the One-Stop center costs were proportionate to the level
       of services.

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure
DOES:

    1. revises Chapter 8, Section 5, Special Population Services of the DOES One-Stop
       Career System Operating Policies to specify that low-income participants facing
       multiple barriers to employment have the right to choose any eligible training
       provider, even if a “hard-to-serve” provider refers them to DOES;

    2. directs caseworkers to sufficiently document all activity related to enrolling Adult
       and Dislocated Worker participants in approved training and identify and take
       action on the systemic causes of any delays;



4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


   3. enhances the Virtual One-Stop System (VOS) to automatically exit Adult and
      Dislocated Worker participants who have not had any activity in 90 days and
      provide training for their caseworkers to ensure that they are complying with
      policies and procedures;

   4. develops and implements procedures to ensure that subgrant awards are
      reviewed by the Office of Grants Management and Development (OGMD); and

   5. implements a process and tracking system to ensure it obtains the required OMB
      Circular A-133 Single Audit Reports for contractors and subgrantees and uses the
      audit reports as part of its monitoring process.

Agency Response

In their response to the draft report, DOES officials stated they have taken action on
recommendations 3 and 5 and plan to take corrective action on recommendation 1.
The response did not address recommendations 2 and 4.

DOES officials did not agree with some of the findings in the report. Specifically, DOES
officials responded that they mildly disagree that all customers did not have the option
of consumer choice in 2002 and 2003. DOES officials believe that some confusion
stems from the One-Stop Policy Manual which was drafted in 2002. DOES officials
stated the policy is being reviewed and updated. Also, officials stated that, “after
considerable wrangling with our local legislature, in 2004, the District eliminated
contractual programs for the hard-to-serve, offering only ITA programs.”

Concerning our finding on the amount of time it took participants to enter training, DOES
officials responded that there is no national consensus as to amount of time it should
take to get customers into training, or what steps a customer should be required to
complete before a determination for training services is made. DOES officials stated
that the dates discussed in the report do not consider the date on which a person is
determined to need training.

Finally, DOES officials believe they complied with DC procurement regulations in
awarding YO subgrants. DOES officials stated that neither the District’s Office of
Contracting and Procurement nor OGMD raised any concerns relative to the Youth
Opportunity Grant award process, or the decision to kick-off the WIA older youth
programming with YOG programs.

OIG Conclusion

The DOES response to our draft report did not provide any additional information that
caused us to revise our findings and recommendations.

All the recommendations will be resolved as part of ETA’s audit resolution process. We
attached the DOES response in its entirety to this report as Appendix D.

U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for
  Employment and Training
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210


The Office of Inspector General (OIG) conducted an audit of the District of Columbia
(DC) Workforce Investment Act (WIA) program for program years (PYs) 2001 and 2002
but we examined activities beyond this period when circumstances warranted. The
Department of Employment Services (DOES) administers the DC WIA program. For
PYs 2001 and 2002, the Employment and Training Administration (ETA) awarded DC
$7,842,718 and $7,819,449, respectively, in WIA funds and $8,000,000 and
$6,000,000, respectively, in Youth Opportunity (YO) grants.

We conducted the audit to answer the following questions:

   1. For Adult and Dislocated Worker participants with an approved Individual
      Training Account (ITA), did DOES: (1) provide these participants a choice of
      training providers; (2) provide training services in a timely manner; and (3) exit
      these participants from WIA in a timely manner?

   2. Does the DOES procurement process for selecting training providers adhere to
      WIA and DC regulations?

   3. Is DOES meeting Office of Management and Budget (OMB) Circular A-133
      Single Audit requirements?

   4. Is the DOES One-Stop System structured in accordance with WIA and the DOES
      State Plan, and are costs for the One-Stop centers proportionate to the level of
      services they provide?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our scope, methodology, and criteria are detailed in Appendix B.



U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


Objective 1 – For Adult and Dislocated Worker participants with an approved Individual
Training Account (ITA), did DOES: (1) provide these participants a choice of training
providers; (2) provide training services in a timely manner; and (3) exit these
participants from WIA in a timely manner?

Results and Findings

Overall, for Adult and Dislocated Worker participants with an approved ITA: (1) there
was evidence to support that DOES provided a choice of training providers to 14 of the
20 participants in our sample, but DOES’ policies for low-income participants facing
multiple barriers to employment did not provide for consumer choice; (2) over one-third
of these participants waited over 60 days to receive training and 14 percent waited over
4 months, but we could not determine if the delays were justified; and (3) DOES
caseworkers did not exit 52 percent of sampled Adult and Dislocated Worker Program
participants within the required WIA guidelines of 90 days after no activity.

There was Evidence to Support that DOES Provided Consumer Choice to 14 of the 20
Adult and Dislocated Worker Participants in Our Sample, but DOES Policies for Low-
Income Participants Facing Multiple Barriers to Employment Need to be Changed.

Our testing found there was evidence to support that DOES provided a choice of
training providers to 14 of 20 Adult and Dislocated Worker participants in our sample.
We could not make a determination for the remaining six participants. However, we
found that Chapter 8, Section 5, Special Population Services, of the DOES One-Stop
Career System Operating Policies for low-income individuals facing multiple barriers to
employment, did not comply with WIA consumer choice requirements.

WIA Section 134 (d)(4)(F), Consumer Choice Requirements, states:

       In general—Training services provided under this paragraph shall
       be provided in a manner that maximizes consumer choice in the
       selection of an eligible provider of such services. Eligible
       providers—Each local board, through One-Stop center referred to
       in subsection (c), shall make available—the State list of eligible
       providers of training services required under section 122 (e), with a
       description of the programs through which the providers may offer
       the training services, and the information identifying eligible
       providers of on-the-job training and customized training required
       under section 122(h); and the performance information and
       performance cost information relating to eligible providers of
       training services described in subsections (e) and (h) of section
       122.

WIA Section 134 (d)(4)(G), provides that training services to eligible participants shall
be provided through the use of ITAs.


8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


We obtained an understanding of the DOES ITA process by interviewing DOES staff
and reviewing DOES One-Stop Career Center Operating Policies. With the exception
of low-income individuals facing multiple barriers to employment, DOES’ policies
provide consumer choice to participants. DOES’ policies for low-income individuals
facing multiple barriers to employment are stated in Chapter 8, Section 5, Special
Population Services of the DOES One-Stop Career System Operating Policies. The
policy defines these types of individuals as those with language barriers, offenders,
homeless, or other hard-to-serve individuals as defined by the WIC. The policies
provide that these individuals should not be left “on their own” to find suitable
employment. The policy explains that a participant initially referred to a NetWorks One-
Stop center by a “hard-to-serve” training provider, should be certified and referred back
to that training provider. Therefore, we concluded this policy does not comply with WIA.

We found DOES provided a choice of training providers to 14 of the 20 participants in
our sample. We could not make a determination on the remaining six participants. We
selected a non-statistical random sample of 20 participants with an approved ITA that
received services from providers that also served hard-to-serve individuals. We used
this method because there was a higher risk that participants from these types of
training providers were not provided consumer choice. We either contacted the
participant or examined their case file to determine if DOES gave them a choice of a
training provider. We could not make a determination for 6 of the 20 sampled
participants due to a lack of documentation and inability to contact the participant. The
remaining 14 participants in our sample were all offered a choice of training providers.

Over One-Third of WIA Adult and Dislocated Worker Program Participants Waited Over
60 Days to Receive Training But Inadequate Documentation Hindered Our
Determination of Whether the Delays Were Justified.

Our analysis of data for all of the WIA Adult and Dislocated Workers approved for an
ITA, found that 37 percent waited over 60 days to start training and 14 percent waited
over 4 months. However, we were unable to determine if the delays for 60 percent of
participants reviewed were justified because of poor case file documentation.

Although there are no Federal requirements concerning the timeframes for providing
training to eligible WIA Adult and Dislocated Workers, the DOES One-Stop Career
Operating Policies states, it should only take a maximum of 30 days from the time these
participants enter a NetWorks’ One-Stop center until they are determined eligible and
approved for training. This process is completed with the execution of an ITA. With the
ITA, the approved participant may select a training course from a list of approved
training providers.

We performed an analysis of data in the DOES Virtual One-Stop System (VOS) for all
WIA Adult and Dislocated Workers approved for an ITA during PYs 2001 through 2004.
We identified the number of participants whose time between their registration and
training start date exceeded 60 days. We used the 60-day measurement based on the
DOES policy to approve participants for an ITA within 30 days of registering at the


U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


One- Stop center and our judgment that the training should begin within 30 days after
DOES caseworkers approved the ITA.

The results of our analysis found that 37 percent of the participants with ITAs waited
over 60 days to start the training. On average, these participants waited 146 days
between the time when they registered at the NetWorks’ One-Stop center and when
they started training. The following table provides details:

                                                              Percent of Average Number of
                                            Number of           Total       Days to Start
                                            Participants     Participants     Training
Total Participants With ITAs During
PYs 2001 through 2004                               2,613           100%

Total Number of Participants Over 60                                          146 Days
Days Between Registration Date and
                                                      971           37%
Training Start Date


Number of Days Between Registration
Date and Training Start Date Over 60
Days
                          61-125 Days                 607           23%
                         126-250 Days                 248           10%
                            251+ Days                 116            4%
       Total Participants Over 60 days                971           37%

To determine why it took more than 60 days for participants to enter training, we
selected a non-statistical random sample of participants from each of the time intervals
shown in the above table and reviewed case file documentation and any supplementary
information from DOES staff. Our sample totaled 30 participants. There was
insufficient information in the case files to determine the cause of the delay in entering
training for 18 (60 percent) of the 30 participants in our sample. The enrollment date in
the VOS may not be reliable because when DOES installed a new version of VOS, a
default date replaced the actual enrollment date of existing participants. Additionally, if
the participant had to change training providers, the original training start date had to be
deleted and replaced with the new training start date. DOES officials told us that
caseworkers should have documented these circumstances in the participant case files.

For the 12 in our sample that had adequate documentation in the case file, the reasons
for the delay in training were not always attributed to DOES. Specifically, the following
reasons contributed to why training was delayed:

     •   The participant changed training providers.
     •   The training provider had a specified start date.


10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


   •   The participant requested a training provider not approved at the time and was
       waiting for DOES to approve the provider.
   •   The training provider changed the date of training due to lack of enrollees.
   •   The training provider discontinued services while the participant was enrolled
       which caused the participant to select a new training provider.

Without adequate case file documentation, we could not conclude whether the delays in
providing training were justified.

DOES Caseworkers Did Not Exit 52 Percent of Sampled Adult and Dislocated Worker
Program Participants Within the Required WIA Guidelines of 90 Days After No Activity.

DOES did not exit participants from its WIA Adult and Dislocated Worker programs after
90 days of no activity. This occurred because DOES did not implement policies and
procedures to ensure such participants were exited after 90 days of inactivity. As a
result, there is a potential risk that DOES may be taking credit for the employment of
participants in which services had not been provided in more than 90 days. The risk of
overstating the number of employed exited from the program could also result in
receiving unearned incentives that ETA provides to states that exceed their negotiated
performance levels.

ETA’s Training and Guidance Letter No. 7-99, Core and Customer Satisfaction
Performance Measures for the Workforce Investment System, provides guidance for
states to implement core and customer satisfaction performance measures required
under WIA. Part (4)(D) of the Guidance Letter states for all of the core measures,
comparability across the states is only possible if a single point in time is used to begin
measurement. The term “exit” is being used to determine when to count an individual in
a specific reporting period. Individuals become part of an exit group within a particular
quarter and are looked at together for measurement purposes.

The Guidance Letter states that there are two ways to determine exit during a quarter:

       1. A participant who has a date of case closure, completion or known exit from
          WIA-funded or non-WIA funded partner service within the quarter (hard exit),
          or

       2. A participant who does not receive any WIA-funded or non-WIA funded
          partner service for 90 days and is not scheduled for future services except
          follow-up services (soft exit). The exception to this would apply to participants
          who have a planned gap in service of more than 90 days due to a delay in
          starting training or a health or medical condition that prevents them from
          participating in WIA services. However, the Guidance Letter states any gap
          in service should be documented along with the reasons.

The Guidance Letter also explains that UI wage records and supplemental data sources
can be used for the Adult and Dislocated Worker entered employment and employment

U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


retention rate measures. Only UI wage records can be used for the earnings change
measure. States may apply for incentives if their performance for the immediately
proceeding year has exceeded the state's negotiated levels of performance for the
required core indicators for the adult, dislocated worker, and youth programs under Title
I of WIA, as well as, the customer satisfaction indicators of WIA for Title I programs.

DOES officials told us that the caseworkers were not exiting participants who did not
have any activity for 90 days. DOES officials said that the VOS does not have the
capability to automatically exit participants with no activity for 90 days. DOES officials
admitted that case file management needs improvement.

To verify what DOES officials told us, we performed an analysis of the same sample of
the 30 participants cited in our finding on whether WIA Adult and Dislocated Workers
with ITAs were enrolled in training timely. We analyzed the 27 of the 30 participants
that had more than 90 days between their WIA registration dates and the training start
dates. Of those 27, 14 (52 percent) either had no activity for 90 days or the caseworker
did not document activity if it did occur. For the remaining 13 participants, we found 12
had instances in which there was activity within 90 days. We could not make a
determination on the remaining participant because the case file showed four different
WIA enrollment dates and two different training start dates.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training ensure
DOES:

1. revises Chapter 8, Section 5, Special Population Services, of the DOES One-Stop
Career System Operating Policies to specify that low-income participants facing multiple
barriers to employment have the right to choose any eligible training provider even if a
hard-to-serve provider refers them to DOES;

2. directs caseworkers to sufficiently document all activity related to enrolling Adult and
Dislocated Worker participants in approved training and identify and take action on the
systemic causes of any delays; and

3. enhances VOS to automatically exit Adult and Dislocated Worker participants that
have not had any activity in 90 days and provide training for their caseworkers to ensure
that they are complying with policies and procedures.

Agency Response

DOES officials responded that they mildly disagree that all customers did not the have
the option of choice in 2002 and 2003. DOES officials believe that some confusion
stems from the Department’s One-Stop Policy Manual which was drafted in 2002, and is
being reviewed and updated. The manual provides that a participant referred to a One-
Stop center by a hard-to-serve training provider, should be referred back to that training

12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


provider. However, in practice, quite the opposite was true because hard-to-serve
providers complained that their referrals were enrolling in other programs after being
provided the full spectrum of options. DOES officials stated that, “after considerable
wrangling with our local legislature, in 2004, the District eliminated contractual programs
for the hard-to-serve, offering only ITA programs.”

Concerning our finding on the amount of time it took participants to enter training, DOES
officials responded that there is no national consensus as to amount of time it should
take to get customers into training, or what steps a customer should be required to
complete before determining the need for training services. DOES officials stated that
the dates discussed in the report do not consider the date in which a person is deemed
eligible for training. DOES officials stated that in 2002, they believed it should take 30
days for participants to enter training, but now they know different. Additionally, DOES
officials stated that their analysis of the same data showed that for PY 2004 and
PY 2005, the average number of days was 91.6 and 80.5, respectively.

DOES officials responded that they agree that caseworkers did not exit 52 percent of
sampled Adult and Dislocated Worker Program participants within the required WIA
guidelines of 90 days after no activity. DOES officials stated that subsequent to the
period of our audit, they took corrective action to clean out a host of “dead” files and
made several efforts to comply with ETA requirements, such as staff training and
instituting an automatic exit trigger in VOS.

OIG Conclusion

As stated in our finding, we found that participants were provided, where documented, a
choice of training providers despite the One-Stop Career System Operating Policies for
low-income participants facing multiple barriers to employment. By eliminating its
contractual program for the hard-to-serve, and offering only ITA programs, DOES has
addressed the risk of not providing consumer choice to Adult and Dislocated Worker
participants. DOES officials also agree that One-Stop Career System Operating
Policies need to be reviewed and updated in order to not cause confusion regarding the
consumer choice requirement.

Concerning the amount of time it took participants to enter training, our finding clearly
states that there is no Federal requirement and we based our analysis on the
requirements in the DOES One-Stop Career Operating Policies. As we recommend,
DOES needs to determine the cause of the delays and take action. DOES appears to
have done this in part by realizing the requirements in the DOES One-Stop Career
Operating Policies do not consider the date in which the participant is determined to be
eligible for training. The DOES response did not address the problem we found
concerning the lack of case file documentation on the reasons for delays in enrolling
participants in training. Also, we have no explanation for the difference between our
computation of the average number of days to start training and DOES’ computation
provided in the response. The data file DOES provided to us during the audit contained


U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


only two dates, the registration date at the One-Stop and the training start date. We
analyzed only those dates and we included all participants.

DOES officials did not respond to recommendation 2.

Objective 2 – Does the DOES procurement process for selecting training providers
adhere to WIA and DC regulations?

Results and Findings

DOES Did Not Comply with WIA Regulations for its Procurement of Training Providers
for the WIA Youth Program Until October 2002 and DOES Did Not Comply with DC
Procurement Regulations in Awarding YO Subgrants.

DOES does not have sole control over the selection of training providers for WIA
programs and YO grants. DC agencies independent of DOES are also required to be
involved in the selection of training providers. For the Adult and Dislocated Workers
and Youth programs, DOES shares responsibilities with the DC Office of Contracting
and Procurement (OCP) for procuring training providers. For the YO program, the DC
Office of Grants Management and Development (OGMD) is responsible for reviewing
the competitiveness of awarding subgrants to training providers.

The following provides details of our audit work of DOES procurement and awards of
training providers for the WIA programs and YO grants.

Youth Training Providers

Currently, DOES’ process for procuring training providers for the Youth programs meets
WIA requirements. However, DOES did not competitively award contracts for the Out-
of-School Youth program training providers until October 2002. Additionally, we could
not determine the level of involvement by the Youth Investment Council (YIC) in making
recommendations as part of the selection process before 2003.

WIA Section 123, Identification of Eligible Providers of Youth Activities, requires that
such providers be awarded grants or contracts on a competitive basis based on
recommendations from the youth council and criteria contained in the State Plan.

DOES did not establish its Out-of-School Youth program until PY 2001. To expedite the
start of the Out-of-School Youth program, DOES non-competitively procured training
providers by modifying existing YO subgrants (see following section for discussion on
the YO subgrants). DOES did this for PYs 2001 and 2002. DOES issued the first
competitive request for proposals to training providers in February 2002 and awarded
the contracts in October 2002.

The YIC was not established until 2001 and policies and procedures on its procurement
responsibilities were not effective until January 2003. Therefore, we did not attempt to

14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


determine if the YIC made recommendations as part of the early request for proposals
for DOES WIA Youth program before 2003.

DOES’ current process for procuring training providers for its WIA Youth program meets
WIA requirements in that training providers are competitively selected and the YIC is
involved in the selection process. To determine if the process was followed, we
judgmentally selected one procurement action, which awarded six contracts totaling
$972,814 for the base year and all six were renewed the following year. The process
was followed and the contracts were awarded on a competitive basis and with
recommendations from the YIC.

Youth Opportunity Subgrants

DOES did not follow all the procurement requirements in its non-competitive award of
YO grant funds to eight subgrantees. ETA awarded DOES $32 million over 5 years for
the YO grant.

YO grants are authorized under Section 169 of WIA. The initial grant period is 1 year
with up to an additional 4 years based on the availability of funds and satisfactory
progress towards achieving the grant objectives and goals. The grants are structured
for the entities to receive an initial award for PY 2000, then “re-apply” each subsequent
year. Section 169 does not have any specific criteria for selecting YO training
providers, so we concluded DOES was required to follow Title 29 of the Code of Federal
Regulations (CFR) part 97, Uniform Administrative Requirements for Grants and
Cooperative Agreements, subpart C section 97.36. This requires states to follow the
same policies and procedures it uses for procurements from its non-Federal funds. The
DC Register, Chapter 50, Subgrants to Private and Public Agencies, Section 5002.1,
effective May 21, 1999, states “all subgrants to private organizations shall be awarded
on a competitive basis.” Section 5002.1(a) provides exceptions to making awards on a
competitive basis including:

   •   The award of the grant designates the subgrant recipient.

   •   The Federal law defines eligibility in such a way that there is only one eligible
       applicant.

   •   There is a recognized coalition of service providers through which the broadest
       community participation may be obtained in serving the targeted clientele.

The following are additional requirements in Chapter 50 concerning sole source awards:

   •   Section 5002.6(g) requires agencies to prepare a sole source justification
       explaining the absence of competition and submit it to OGMD.

   •   Section 5004.1(a) provides OGMD will review each subgrant award that exceeds
       $10,000 to ensure agencies followed the competitive process.

U.S. Department of Labor—Office of Inspector General                                       15
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




     •   Section 5004.1(d) states that: In addition to the review for competitiveness by
         OGMD and, if required by the City Administrator and Chief Financial Officer, any
         subgrant award involving expenditures in excess of $1 million during a 12-month
         period, including subsequent modifications to an award that singly or in
         aggregate with the award involves expenditures in excess of $1 million during a
         12-month period, shall be reviewed and approved by the DC Council.

DOES officials told us that they did not competitively award the YO subgrants for the
following reasons:

     •   Various community service organizations collectively approached DOES to be
         involved in the planning and submission of a grant proposal to ETA for the YO
         grants. DOES officials told us the community service organizations had
         extensive experience in youth education and career development and experience
         in dealing with youth who were out-of-school, hard-to-serve, and at risk of
         dropping out of school. A DOES official explained that it was the strength of the
         training providers that influenced DOES’ decision to apply for YO grants.

     •   ETA guidance in the Solicitation Grant Announcement encouraged the inclusion
         of subgrantee training providers in its grant proposal. ETA’s solicitation showed
         that factors for rating proposals included public sector and community
         partnerships and complementary resources.

     •   There was not sufficient time to competitively solicit subgrantees because the
         closing date for YO grant applications was only 4 months after ETA announced
         the competition; it would have taken at least 6 months if the subgrantees were
         competitively awarded. ETA published the Notice of Availability of Funds and
         Solicitation for Grant Applications in the Federal Register on June 2, 1999, and
         the applications were due September 30, 1999. ETA officials confirmed that
         submitting a proposal could take at least 6 months.

     •   During a presentation at a conference on YO grants, ETA officials stated that the
         subgrants did not have to be competitively awarded if they were included in the
         solicitation proposals.

Based on DOES officials’ explanations and review of documentation on the subgrant
awards, we did not question DOES sole source justification. However, there was no
evidence to show that DOES provided the sole source justification to OGMD for review
as required by Section 5002.6(g). There was also no evidence that OGMD reviewed
the awards to ensure DOES followed DC regulations for subgrant awards as required
by Section 5004.1(a).

Additionally, 10 awards made to 5 subgrantees were just under the $1 million threshold
requiring DC Council review. The following schedule shows YO subgrantees and
awards that exceeded $950,000 for PYs 2001 through 2003:

16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                               Audit of District of Columbia’s Workforce Investment Act Programs




        Subgrantee                                  PY 2001        PY 2002      PY 2003

       Action to Rehabilitate Community Housing      $   965,402    $ 995,500     $ 999,914

       Covenant House                                $   951,547    $ 953,000    $ 980,000

       Foundation for Education Innovation           $   997,500

       Latin American Youth Center                   $   997,660

       Friendship House Assoc.                                       $985,206    $ 995,614


   Note: Some of the amounts for Foundation for Education Innovation, Latin American Youth Center
   and Friendship House Association include modifications to award WIA Out-of-School Youth funds.

DOES did not submit the subgrants to the DC Council for review. Considering that the
subgrants were not competitively awarded, DOES officials should not have solely made
the decision of whether to submit the subgrants to the DC Council for review because
they were just below the threshold. Had DOES followed DC regulations and submitted
the procurement action to OGMD for review, OGMD would have been involved in
deciding whether the awards should have been submitted to the DC Council for review
as required by Section 5004.1(d) because they were so close to the threshold.

The DOES Procurement Process of Training Providers For the WIA Adult and
Dislocated Worker Programs Adheres to WIA Regulations.

DOES has a process in place that meets WIA requirements for selecting training
providers for its Adult and Dislocated Worker programs.

WIA Section 122, Identification of Eligible Providers of Training Services, requires that a
process be implemented for establishing the criteria and procedures to determine the
initial eligibility of training providers for the Adult and Dislocated Worker programs. The
process should also include maintaining a list of eligible training providers from which
participants can choose.

The DC OCP and the Workforce Investment Council (WIC) are responsible for
approving training providers. Any training provider that meets the eligibility criteria can
participate in the WIA Adult and Dislocated Worker programs. An application process is
used to evaluate and select training providers. OCP is responsible for initially reviewing
applications for completeness and signatures. OCP then sends the applications to the
DOES Office of Contract Management (OCM) which conducts site visits and reviews of
staff qualifications, past performance, and required licenses. OCM provides the results
of its review to OCP and the WIC. OCP and the WIC will then decide whether or not to
approve the application. If the application is approved, OCP executes either a purchase
order or a Blanket Purchase Agreement (BPA) with the training provider. The purchase
order and BPA contain a provision that the cost of the training during a 12-month period
for each participant shall not exceed $8,000 without authorization from DOES. OCP

U.S. Department of Labor—Office of Inspector General                                                17
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


requires that training providers be recertified every 2 years and, at any time, OCM, can
recommend to the WIC or OCP removing a training provider from the approved list
based on performance and compliance monitoring reviews. DOES maintains a list of
approved training providers for participants to choose from. The list identified 58
training providers approved for PY 2001 and 76 approved for PY 2002.

We did not review any training provider files for the Adult and Dislocated Worker
programs to determine if DOES followed the above process for selecting such
providers.

Recommendation

4. We recommend that the Assistant Secretary for Employment and Training ensure
DOES develops and implements procedures to ensure that subgrant awards are
reviewed by OGMD.

Agency Response

DOES officials responded that they believe they complied with DC procurement
regulations in awarding the YO subgrants. DOES officials provided an explanation
concerning the reasons for selecting and making the awards to the YO subgrantees.
DOES stated that the DC OCP and the OGMD reviewed the YO subgrant awards and
these offices did not raise any concerns relative to the award process, or the decision to
kick-off the WIA older youth programming with YO subgrants.

OIG Conclusion

DOES officials did not respond to the recommendation. As stated in our finding, we did
not question DOES’ sole source selection of the YO subgrantees. In their response,
DOES officials imply that OCP and OGMD reviewed the procurement for the YO
subgrants award process; however, DOES officials did not provide any evidence to
support this statement.

Objective 3 – Is DOES meeting OMB Circular A-133 Single Audit requirements?


Results and Findings

DOES Did Not Meet the OMB Circular A-133 Single Audit Requirements Because It Did
Not Obtain the Required Audit Reports for Two of Eight Subgrantees.

DOES did not have adequate controls in place to ensure all required audit reports were
obtained. As a result, there is a risk that DOES would not be able to detect if DOL
funds were not spent in accordance with the appropriate laws and regulations.



18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


OMB Circular A-133, Subpart B – Audits, section 200 (a) states that non-Federal entities
that expend $300,000 ($500,000 for fiscal years ending after December 31, 2003) or more
in a year in Federal awards shall have a single or program–specific audit conducted for
that year. Additionally, OMB Circular A-133, Subpart D, section 400(d) provides some of
the following requirements concerning pass–through entities. The pass-through entity
shall:

   •   Ensure that subrecipients expending $300,000 ($500,000 for fiscal years ending
       after December 31, 2003) or more in Federal awards during the subrecepient’s
       fiscal year have met the audit requirements of this part for that fiscal year.

   •   Monitor activities of subrecipients to ensure awards are used for authorized
       purposes and that performance goals are achieved.

   •   Issue decision on audit findings within 6 months after receipt of subrecipient’s audit
       report.

In June 2003, the DOES Director issued a memorandum stating that DOES contracts and
subgrants will be modified to require that contractors and subgrantees self-certify their
obligation under OMB Circular A-133 and submit their required audit reports, as
appropriate. The memorandum further stated that the required audit reports will be
obtained and reviewed by the receiving office and the necessary corrective action will be
taken in regard to DOES funding. DOES OCM is responsible for financial monitoring of
subgrants and contracts for all of the DOES employment and training programs.

DOES did not obtain the required audit reports for two of eight subgrantees. Specifically,
The Foundation for Education Innovation did not submit the required audit reports for
December 31, 2000, through December 31, 2003. It received over $3,400,000 in grant
funds for PY 2000 through PY 2003. The other subgrantee, Associates for Renewal in
Education, received over $788,000 in PY 2001 and $313,000 in PY 2002, but did not
submit the required audit reports.

We interviewed various DOES, OCP, and Office of Chief Financial Officer (CFO) officials
to identify procedures for obtaining and reviewing the required audit reports for contractors
and subgrantees. They responded that there were no procedures for obtaining and
reviewing audit reports. Additionally, the A-133 Single Audit Report for DC, for the year
ending September 30, 2002, reported that DOES did not have a process in place to obtain
the required audit reports. DOES’ response to the finding stated that corrective action was
taken. However, DOES is still lacking procedures to ensure it obtained the required audit
reports from subrecipients.




U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


Recommendation:

5. We recommend that the Assistant Secretary for Employment and Training ensure
DOES implements a process and tracking system to ensure it obtains the required OMB
Circular A-133 Single Audit Reports for contractors and subgrantees and use the audit
reports as part of its monitoring process.

Agency Response

DOES officials responded that they obtained the OMB Circular A-133 Single Audit
Reports for one of the two subgrantees cited in our finding. DOES officials also stated that
they took corrective action and revised their procedures to ensure that responsibilities for
obtaining the required audits were clearly detailed.

OIG Conclusion

The DOES response did address the recommendation and described corrective action
taken by DOES to ensure it obtains the required OMB Circular A-133 Single Audit
Reports. However, DOES did not address whether it obtained the audit report for one
of the two subgrantees cited in the finding.

Objective 4 – Is the DOES One-Stop System structured according to WIA and the
DOES State Plan and are the costs for the One-Stop centers proportionate to the level
of services they provide?


Results
DOES Structured its One-Stop System According to WIA Regulations and the DOES
State Plan, and the One-Stop Center Costs Were Proportionate to the Level of Services
Provided.

Title 20 CFR, part 662 provides the requirements of the One-Stop system under Title I
of WIA. Subpart A, section 662.100(c) requires that the One-Stop delivery system must
include at least one comprehensive physical center in each local area that provides the
core services specified in WIA section 134(d)(2), and must provide access to other
programs and activities carried out by the One-Stop partners. Also, section 662.100(e)
requires that the design of the local area’s One-Stop delivery system, including the
number of comprehensive centers and the supplementary arrangements, be described
in the local plan and be consistent with the memoranda of understanding executed with
the One-Stop partners.

According to the DOES State Plan, integrated service delivery will be provided through
its One-Stop delivery system – NetWorks. One of the DOES goals for NetWorks is to
provide more flexibility by locating full service and specialized satellite One-Stop centers
throughout the community so they are closer to the customer and more accessible by


20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


public transportation. The DOES State Plan provides that these centers be located
throughout the city creating access within a 20 minute commute for residents of each
ward.

During the period covered by our audit, the DOES NetWorks consisted of:

   •   two full service One-Stop centers;

   •   six satellite One-Stop centers; and

   •   a full service One-Stop center specifically for youth services.

Each center is an entry point for any individual seeking services and staff will then direct
the individual to the location that can best provide the services they need. Therefore,
the DOES One-Stop System complies with WIA regulations and is structured according
to its State Plan.

To determine if the costs of the One-Stop centers were proportionate to the level of
services provided (full service center vs. specialized satellite center), we obtained PYs
2001 and 2002 cost reports and staffing for each of the nine One-Stop centers and
compared the total costs and staffing to the level of services the centers provided. The
two full service One-Stop centers and the full service One-Stop for youth services
accounted for 78 percent of the total NetWorks One-Stop center costs for PYs 2001 and
2002 and at least 76 percent of the staff. Therefore, the One-Stop center costs were
proportionate when compared to the level of services provided.

Agency Response

DOES officials responded that they welcome our conclusion that its One-Stop system is
structured in accordance with regulations and our plan, and that costs were
proportionate to the level of services.

OIG Conclusion

We agree with the response.

All the recommendations will be resolved as part of ETA’s audit resolution process.




Elliot P. Lewis
March 3, 2006




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs




Appendices




U.S. Department of Labor—Office of Inspector General                                       23
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


                                       APPENDIX A
BACKGROUND


Workforce Investment Act of 1998

The purpose of WIA (Public Law 105-220 Aug.7, 1998), is to provide funding and
guidance to statewide and local workforce investment systems to increase the
occupational skill attainment, employment, retention, and earnings of participants. WIA
supersedes the Job Training Partnership Act, amends the Wagner-Peyser Act, reforms
Federal job training programs, and creates a comprehensive workforce investment
system. Moreover, WIA contains the Adult Education and Family Literacy Act, and the
Rehabilitation Act Amendments of 1998. ETA is responsible for administering WIA at
the Federal level.

The goal of WIA is to increase employment, retention, and earnings of participants, and
in doing so, improve the quality of the workforce to sustain economic growth, enhance
productivity and competitiveness, and reduce welfare dependency. In addition, the Act
is intended to be customer-focused, to help Americans access the tools they need to
manage their careers through information and high quality services, and to help U.S.
companies find skilled workers. The law embodies the following seven key principles.

   •   Streamlining Services through better integration at the local level in the One-Stop
       delivery system. To enable the system as a whole to be coherent and accessible
       for individuals and businesses alike, programs and providers are to co-locate,
       coordinate and integrate activities and information.

   •   Empowering individuals in several ways.

       1. Eligible adults are given financial power to use ITAs at qualified training and
          education providers.
       2. Individuals are empowered with greater levels of information and guidance
          through a system of consumer reports providing key information on the
          performance outcomes of training and education providers.
       3. Individuals are empowered through the advice, guidance, and support
          available through the One-Stop system, and the activities of One-Stop
          partners.

   •   Universal Access. Any individual will have access to the One-Stop system and
       to core employment-related services.

   •   Increased accountability. To survive in the market, training providers must make
       accountability for performance and customer satisfaction a top priority.

   •   Strong role for local workforce investment boards and the private sector. The
       local, business-led boards act as “boards of directors” and focus on strategic

U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


         planning, policy development and oversight of the local workforce investment
         system.

     •   State and local flexibility. In order to implement an innovative and
         comprehensive workforce investment system, states and localities have
         increased flexibility, with significant authority reserved for the Governor and chief
         elected officials to build on existing reforms. The flexibility allows the particular
         needs of the local and regional labor markets to be met.

     •   Improved youth programs linked more closely to local labor market needs and
         community youth programs and services, and with strong connections between
         academic and occupational learning. The Act builds on the existing reforms
         pertaining to youth programs, and ensures that they will be available throughout
         the country.

Youth Opportunity Grants Initiative

YO grants, authorized under Section 169 of the Workforce Investment Act of 1998, are
to provide activities for youth to increase their long-term employment. This is for youth
who live in empowerment zones, enterprise communities, and high poverty areas. A
primary goal of the YO grants is to put systems in place that will be sustained after DOL
funding ends, and result in long-term improvements in the community’s capacity to
serve youth. The 5-year $1 billion YO grants were awarded through a competitive
selection process. Thirty-six communities received YO grants—24 urban communities,
6 Native American, and 6 rural areas. All individuals ages 14-21 that reside in a
community identified in the grant are eligible to receive services under the YO grants.

Department of Employment Services

DOES administers the WIA program in DC. However, DOES is not responsible for the
fiscal and procurement aspects of the program. The DC CFO is responsible for the
fiscal administration of the program and ensuring that DOES complies with fiscal laws
and requirements, determining if DOES has sufficient funding for its program needs,
compiling program statistics, and preparing the Financial Status Reports submitted to
ETA. The DC OCP is responsible for any procurement actions to satisfy DOES needs
and for preparing all contract solicitations, negotiations, and awards.

For PYs 2001 and 2002, ETA awarded DC $7,842,718 and $7,819,449, respectively, in
WIA funds and YO funds of $8,000,000 in PY 2001 and $6,000,000 in PY 2002. The
following chart provides the WIA grant funds for the three WIA components and YO
grants:




26                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-002-03-390
                                                Audit of District of Columbia’s Workforce Investment Act Programs




              Funding Type                                        PY 2001 Grant Funds                   PY 2002 Grant Funds
    WIA Component 1
     Youth                                                                           $4,593,113                       $4,134,267
     Adult                                                                             $994,917                         $895,426
     Dislocated Workers                                                              $2,254,688                       $2,789,756
    Total WIA Funds                                                                  $7,842,718                       $7,819,449
    YO Grants 2                                                                      $8,000,000                       $6,000,000
    Total WIA and YO Funds                                                         $15,842,718                       $13,819,449

Within DOES, the One-Stop Operations Division is responsible for ensuring the
coordination of job search and training selection services to participants. OCM is
responsible for providing oversight and support for contracts, subgrants, and
memoranda of understanding. The Office of Youth Services manages the WIA Youth
Programs, both in-school and out-of-school youth, and the YO grant program. See the
following organization charts of DOES, CFO, and OCP.

                                                                DOES
                                                                Director




      Office of Compliance and                          Administrative Director
      Indenpendent Monitoring
                (OCIM)




         One-Stop Operations                       Office of Contract Management                     Office of Youth Services
                                                               (OCM)                                           (OYS)




           Office of Chief Financial Officer (CFO)                                   Office of Contracting and Procurement (OCP)
                      DC Government                                                                 DC Government


                           Agency CFO

                                                                                              Agency Chief Contracting Officer
                         Senior Manager


         Program Analyst             Assistant Accountant
                                                                                              Supervisory Contracts Specialist




1
    WIA funds are awarded based on a formula that takes various factors into consideration.
2
    YO grants were awarded on a competitive basis.


U.S. Department of Labor—Office of Inspector General                                                                             27
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


                                                                           APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

As part of an ongoing effort to ensure that the WIA program was operating in
accordance with the intended requirement of laws and regulations, the OIG conducted a
performance audit of the DC WIA program for program years (PYs) 2001 and 2002.

Objectives

We conducted the audit to answer the following objectives:

   1. For Adult and Dislocated Worker participants with an approved Individual
      Training Account (ITA), did DOES: (1) provide these participants a choice of
      training providers; (2) provide training services in a timely manner; and (3) exit
      these participants from WIA in a timely manner?

   2. Does the DOES procurement process for selecting training providers adhere to
      WIA and DC regulations?

   3. Is DOES meeting Office of Management and Budget (OMB) Circular A-133
      Single Audit requirements?

   4. Is the DOES One-Stop System structured in accordance with WIA and the DOES
      State Plan, and are costs for the One-Stop centers proportionate to the level of
      services they provide?

Scope and Methodology

Our audit covered WIA program activities and funds awarded to DC for the period
July 1, 2001, through June 30, 2003. However, we examined activities beyond this
period when circumstances warranted, such as, our review of participants that waited
over 60 days to start training, DOES’ YO grants and compliance with OMB Circular A-
133.

We interviewed officials from the ETA National Office and the Philadelphia Regional
Office and obtained financial and program statistics information. We also interviewed
DOES officials to obtain a description of program operations, training activities, and
program costs. Additionally, we reviewed documentation, as needed, that supported
information from interviews and provided a basis for analysis. We also performed
testing for the Adult and Dislocated Worker programs using judgmental and non-
statistical sampling as discussed below.

To determine if DOES provided consumer choice of training providers to Adult and
Dislocated Worker participants approved for an ITA and provided training in a timely
manner, we interviewed DOES employees to gain an understanding of ITA customers’
flow process. We compared the DC Networks One-Stop Career Systems Operating

U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


Policies to WIA, CFR 20 part 652 et.al., and Training and Employment Guidance Letter
(TEGL) 7-99 to determine if DOES’ written procedures comply with the Act and the
CFR. DOES staff provided an electronic spreadsheet of information for participants with
ITAs in PY 2001 and PY 2002, which we used to generate a non-statistical random
sample of participants for the choice of training provider review and the time delay
review. We assessed the reliability of data by interviewing DOES officials that provided
it and comparing the spreadsheet data to the participant case files or information
generated from a telephone survey. Based on these methods, we concluded that the
information used for the consumer choice sample was sufficiently reliable for our report;
however, the information for the causes of the time delay sample was unreliable, which
is included as a finding in this report.

To determine if there was evidence that DOES provided a choice of training providers,
we randomly selected 20 participants. We selected our sample from service providers
that also served hard-to-serve participants because there was a higher risk that DOES
did not provide these participants a consumer choice. We attempted to contact each
participant twice by telephone, and for the participants that we were unable to contact,
we examined their case files.

To determine if there was a time delay from when participants registered in WIA until
they started training, we selected a non-statistical stratified random sample of 30
participants from PYs 2001 and 2002. We selected 5 with delays between 61-125 days,
10 with delays between 126-250 days, and 15 with delays over 250 days. We reviewed
the case files of all of the participants in our sample to determine if there was
documentation to explain the time delay. We performed an initial analysis of PYs 2001
and 2002 data. We subsequently obtained and analyzed PYs 2003 and 2004 data and
added the results to our conclusion. To test the reliability of the data, we selected a
random sample of 70 participants and verified the data to the casefile information in
VOS. We used the time delay sample participants’ case files to determine if they were
exited after 90 days of non-activity. We also obtained supplementary case file
information from DOES staff that contributed to our conclusions.

To determine if DOES was selecting and procuring training providers according to WIA
regulations, we interviewed DOES employees, the Executive Director of the WIC, and
OCP employees to obtain an understanding of the procurement process. Next, we
compared our understanding of the procurement process with the WIA regulations. For
the Adult and Dislocated Worker Programs, we obtained an understanding of DOES’
process of using blanket purchase orders for providing services. Although we did not
perform any testing to determine if DOES was following the process and procedures for
selecting such providers, we did review a blank provider application, two completed
evaluation tools from OCM, an approved BPA, as well as, confirming the process with
OCP during interviews.

For the Youth Program, we obtained an understanding of the process DOES used to
competitively select training providers. To test if the procurement process for the Youth
Program was followed, we reviewed one judgmentally selected Out-of-School Youth


30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


procurement action, which consisted of 17 responses to the request for proposal. Six
providers were awarded contracts totaling $972,814 for the base year and all were
renewed for the following year. The procurement was selected because it was the initial
Out-of-School competitive procurement. To assess the reliability of the data provided,
we interviewed DOES and OCP officials that provided it. We also compared the list of
Out-of-School Youth contract amounts from DOES officials to a list provided by OCP,
which is independent of DOES. We concluded that the data were sufficiently reliable for
the purpose of our report.

To determine if DOES followed regulations regarding the procurement of YO grant
training providers we interviewed DOES, OCP, and ETA officials. We also obtained and
reviewed YO grant documents including, the request for proposal, ETA questions and
answers on YO grants, the original grant awards as well as the subsequent awards for
PYs 2001-2003 by the Office of Youth Services. Subsequently, we compared our
understanding of the process with the WIA and DC government regulations. We
assessed the reliability of the data provided, by interviewing DOES officials that
provided it. We also compared the list of YO grant award amounts to the contract
modifications. We found the data were sufficiently reliable for the purpose of our report.

To determine if DOES was obtaining the required OMB Circular A-133 Single Audit
Reports for youth training providers and YO subgrantees, we reviewed DC’s A-133
Report for the year ended September 30, 2002, and eight YO subgrant agreements.
We also requested subrecipients’ audit reports, covering the period October 1, 1999,
through June 30, 2003.

To determine if the DOES One-Stop System was structured according to WIA and the
DOES State Plan, we interviewed DOES officials and reviewed DOES 5-year Strategic
Plan and WIA regulations. To determine if the costs of each of the One-Stop centers
were proportionate to the level of services they provide, we obtained an understanding
of the services provided, interviewed CFO officials, and obtained and analyzed the
DOES Spending Authority reports for each One-Stop center. We assessed the
reliability of the data by interviewing the CFO official that provided the data and
comparing the Financial Status Reports to the WIA Expenditure Reports, which are a
detailed listing from the DOES general ledger. We concluded that the data were
sufficiently reliable for the purposes of our report.

Internal Controls

Our work on established internal controls included obtaining and reviewing policies and
procedures and contract documents, as well as, interviewing key personnel. We gained
an understanding of the data flows in each audit area and documented a description of
the controls. Our testing of internal controls focused only on the controls related to our
objectives of assessing compliance with significant laws, regulations, and DOES WIA
policies and procedures and was not intended to form an opinion on the adequacy of
internal controls overall, and we do not render such an opinion. Weaknesses noted in
our testing are discussed in the Results and Findings section of this report.


U.S. Department of Labor—Office of Inspector General                                       31
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs


Compliance with Laws and Regulations

In order to determine compliance with the laws and regulations cited in the report, we
interviewed participants and performed a review of the participant case files,
procurement files, and subrecipient audit reports using non-statistical random sampling.

Our compliance testing focused only on the laws and regulations relevant to our audit
objectives. We assessed compliance with significant laws, regulations, and DC WIA
policies and procedures. Our audit objectives were not intended to form an opinion on
compliance with laws and regulations as a whole, and we do not render such an
opinion. Instances of noncompliance are discussed in Objectives 1, 2, and 3 of this
report.

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Fieldwork was conducted from December 2, 2003, to March 26,
2004, at the DOES office in Washington DC. We obtained additional data and other
information from DOES on February 28, 2006, and completed analytical procedures on
such information on March 3, 2006.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved; but it does not guarantee the discovery of illegal
acts, abuse, or all internal control weaknesses. We believe our audit provides a
reasonable basis for our assessment and conclusions.

The conclusions provided in this report are the result of our audit for the period July 1,
2001, to June 30, 2003, unless cited otherwise in this report. Changes in management
of the program, including changes in controls, laws, regulations, and other compliance
requirements could result in performance that would be different from the performance
during that period.

Criteria

We used the following criteria to perform this audit:

     •   Public Law 105-220, August 7, 1998, Workforce Investment Act of 1998

     •   20 CFR Part 652 and Parts 660 through 671, Workforce Investment Act

     •   29 CFR Part 97, Uniform Administrative Requirements for Grants and
         Cooperative Agreements to State and Local Government dated March 1988

     •   OMB Circular A-87 (Cost Principles for State, Local, and Indian Tribal
         Governments)



32                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


   •   OMB Circular A-133 (Audit of State Government)

   •   OMB Circular A-102 (Grants and Cooperative Agreements with State and Local
       Government)

   •   TEGL 7-99

   •   DOES One Stop Career System Operating Policies dated March 2003

   •   DC Register Chapter 50: Subgrants to Private and Public Agencies dated May
       21, 1999




U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs




                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS


              BPA           Blanket Purchase Agreements
              CFO           Chief Financial Officer
              CFR           Code of Federal Regulations
              DC            District of Columbia
              DOES          Department of Employment Services
              DOL           U.S. Department of Labor
              ETA           Employment and Training Administration
              ITA           Individual Training Account
              OCM           Office of Contract Management
              OCP           Office of Contracting and Procurement
              OGMD          Office of Grants Management and Development
              OIG           Office of Inspector General
              OMB           Office of Management and Budget
              PY            Program Year
              TEGL          Training and Employment Guidance Letter
              VOS           Virtual One-Stop System
              WIA           Workforce Investment Act
              WIC           Workforce Investment Council
              YIC           Youth Investment Council
              YO            Youth Opportunity Grants




U.S. Department of Labor—Office of Inspector General                                       35
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs


                                                                               APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                       37
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




38                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs




U.S. Department of Labor—Office of Inspector General                                       39
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                             Audit of District of Columbia’s Workforce Investment Act Programs




U.S. Department of Labor—Office of Inspector General                                       41
Report Number: 03-06-002-03-390
Audit of District of Columbia’s Workforce Investment Act Programs




42                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
